AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Operations




  Audit Report

 The Stabilization of Nuclear
 Materials at Los Alamos National
 Laboratory




 DOE/IG-0659                                August 2004
REPORT ON THE STABILIZATION OF NUCLEAR
MATERIALS AT LOS ALAMOS NATIONAL
LABORATORY




TABLE OF
CONTENTS


                  Nuclear Materials Stabilization Program

                  Details of
                  Finding....................……………......……….       1

                  Recommendations and
                  Comments..................….......….             3

                  Appendices

                  1. Objective, Scope, and
                  Methodology...........………...                     5

                  2. Prior Audit
                  Reports...............………….……………                 6

                  3. Management
                  Comments....………………………….                      7
NUCLEAR MATERIALS STABILIZATION PROGRAM

Background              The Defense Nuclear Facilities Safety Board (Board) is an
                        independent agency established by Congress in 1988. The Board's
                        mandate, under the Atomic Energy Act, is to provide safety
                        oversight of the nuclear weapons complex by recommending to the
                        Secretary of Energy (Secretary) specific measures to ensure the
                        health and safety of Department of Energy (Department) workers.
                        According to the Board, the nuclear weapons program remains a
                        complex and hazardous operation and requires the Board's constant
                        vigilance to ensure that the Department carries out its activities in a
                        manner that provides adequate protection for the public, workers,
                        and the environment.

                        In 1994, the Board issued, and the Department accepted,
                        recommendations to stabilize fissionable and radioactive materials
                        at numerous Department sites, including Los Alamos National
                        Laboratory (Los Alamos). In 2000, citing little progress at Los
                        Alamos, the Board reemphasized the need for stabilization and
                        recommended that the Department accelerate its schedule to
                        further reduce unnecessary risks to workers and the public.

                        The types of fissionable materials at Los Alamos that are subject to
                        stabilization include plutonium metals, oxides, and residues.
                        These materials are kept in containers that are not acceptable for
                        long-term storage. As such, there is the possibility that the
                        containers could leak and workers could be exposed to radiation,
                        resulting in serious health consequences.

Stabilization of        Despite the recommendations to stabilize materials, the
Fissionable Materials   Department has not completed or accelerated the stabilization of
                        fissionable and other radioactive material at Los Alamos. Rather,
                        it has extended the completion schedule until 2010. Furthermore,
                        the Department has missed interim milestones and project tasks
                        that are likely to further impact the schedule.

                                               Stabilization Schedule

                        According to the Department's original Project Implementation
                        Plan (Plan), which was developed in response to the initial
                        recommendation made by the Board, stabilization of all of Los
                        Alamos' fissionable materials was to be completed by 2002.
                        However, when it became clear that stabilization would not occur
                        by 2002, the Department revised its Plan to include a completion
                        date of 2005. By January 2001, the Plan had been revised again
                        and the Department extended the completion date to 2010. The
                        Board disagreed with each of the schedule revisions because



Page 1                                                                  Details of Finding
                   stabilization was not accelerated as recommended. It should be
                   noted that Los Alamos is the only Department site that has not
                   reached agreement with the Board on an acceptable Plan.

                                         Milestone Completion

                   In undertaking the stabilization of nuclear materials, Los Alamos
                   has experienced delays in completing project tasks outlined in its
                   Project Execution Plan – a contractor document that defines
                   specific project requirements and forms the project baseline. Of 85
                   project tasks scheduled to be completed in FY 2003, 59 (69
                   percent) were rescheduled for completion in FY 2004, with
                   anticipated delays of up to 365 days. These delays in project tasks
                   may affect the achievement of future key stabilization milestones.

                   Similarly, the Department and Los Alamos committed to stabilize
                   271 items in Calendar Year 2003; however, only 173 were
                   completed. Los Alamos failed to package and completely stabilize
                   the remaining 98. Sixty-eight of these items were dioxides, which
                   pose a particularly high risk to safety and health. The delay in
                   stabilizing all these items may impact Los Alamos' future ability to
                   meet a critical milestone involving a process to remove water and
                   homogenize metals thereby allowing them to be blended with other
                   oxides.

                   In addition, the 2010 completion date may have to be further
                   extended because the inventory of fissionable materials was
                   incomplete. According to a January 2004 Board review,
                   approximately 155 additional containers, not previously included
                   in stabilization plans, were generated and stored at Los Alamos
                   and will need to be stabilized.

Program Priority   Los Alamos had not made significant progress in stabilizing its
and Planning       fissionable materials or in making plans to accelerate stabilization
                   because the Department had not made the effort a priority. For
                   example, during Fiscal Years (FY) 1997 through 2000, Los
                   Alamos received only 58 percent of the funding it requested for the
                   stabilization project. In 2001 and 2002, Los Alamos received 78
                   percent of what was requested. To its credit, the Department
                   recently increased the funding to Los Alamos for the stabilization
                   of materials.




Page 2                                                             Details of Finding
                  In addition, Los Alamos missed milestones towards its 2010 goal,
                  in part, because it had not made full use of available project
                  management tools. While Los Alamos had developed a Project
                  Execution Plan, the detailed planning documents designed to
                  support the Project Execution Plan were incomplete or did not
                  reconcile with the overall plan and schedule. To facilitate project
                  completion, work packages need to contain results-oriented
                  statements of work, defined deliverables, target milestones,
                  resource requirements, planning assumptions, and requisite
                  budgets. However, we found that many of Los Alamos' work
                  packages lacked milestones and clearly defined statements of
                  work. Managers, therefore, lacked an objective basis to assess and
                  report on the project's status. Los Alamos officials acknowledged
                  the need to improve in this area and have begun to update the work
                  packages and reconcile them to the Project Execution Plan.

                  Finally, the Department had not emphasized the importance of this
                  project by including specific performance measures and incentives
                  in its contract with Los Alamos relating to the stabilization of
                  materials. In contrast, the Department's Savannah River Site has
                  included such measures in its contract with the Westinghouse
                  Savannah River Company.

Risk and Cost     If the stabilization of fissionable materials is not completed,
                  radioactive materials at Los Alamos may further deteriorate and
                  continue to negatively impact the safety and health of workers.
                  For example, an October 2003 Accident Investigation Report noted
                  that two Los Alamos employees were exposed to contamination
                  while inventorying a degraded package containing fissionable
                  materials. In addition, continued extension of stabilization
                  schedule can add to the cost of the program. To illustrate, by
                  extending the schedule to 2010, the Department effectively
                  increased its costs by $78 million. The original cost to stabilize
                  fissionable materials at Los Alamos by 2002 was $105 million; the
                  current estimate is about $183 million. If further schedule delays
                  are experienced, the additional cost to the taxpayer could be
                  substantial and health and safety risks may remain unresolved.

RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense
                  Programs, National Nuclear Security Administration (NNSA):

                   1. Direct Los Alamos to make better use of project management
                      tools to more effectively manage the stabilization project;




Page 3                                        Recommendations and Comments
                    2. Reach agreement with the Board on a scheduled completion
                       date for nuclear materials stabilization at Los Alamos and
                       fund the program consistent with the agreement reached; and,

                    3. Incorporate performance measures and incentives into the
                       Los Alamos contract pertaining to the stabilization of
                       fissionable materials.


MANAGEMENT         The Associate Administrator for Management and Administration
REACTION           concurred with the report's findings and recommendations.
                   Specifically, NNSA agreed to incorporate additional milestones
                   and incentives into the Los Alamos contract. In addition, NNSA
                   will continue to emphasize the need for formal documentation for
                   projects and sub-projects in order to consistently track scope,
                   schedule, and budget process. Management also provided
                   comments to clarify issues raised in the report. Specifically:

                    •   In a February 2004 letter, the Board acknowledged that Los
                        Alamos had stabilized 1,403 items, while the Office of
                        Inspector General (OIG) indicated that Los Alamos only
                        completed 173 of 271 items by December 2003.

                    •   The OIG did not take into consideration the out-year tasks
                        that were completed ahead of schedule. "True earned value"
                        charts provided by Los Alamos take into account the
                        additional items that were stabilized from the out-years.

AUDITOR COMMENTS   Management's comments, which are included in their entirety as
                   Appendix 3, are responsive to our recommendations.

                   In response to management's additional comments, we
                   acknowledge that Los Alamos stabilized 1,403 items in FY's 2001
                   - 2003. However, we audited against the Department's
                   Implementation Plan, which committed to stabilizing 271 specific
                   items during Calendar Year 2003, only 173 of which were
                   completed. Secondly, we could not ascertain which items were
                   stabilized ahead of schedule because, as indicated in the report,
                   Los Alamos' project management documents were incomplete and
                   could not be reconciled. Many of the work packages lacked
                   milestones and clearly defined statements of work.




Page 4                                        Recommendations and Comments
Appendix 1
______________________________________________________________________
OBJECTIVE             The audit was conducted to determine if Los Alamos accelerated
                      the stabilization of its fissionable and other radioactive materials.

SCOPE                       The audit was performed from June 2003 to February 2004 at
                            Department Headquarters in Washington, D.C.; and Los Alamos
                            National Laboratory in Los Alamos, New Mexico. The scope of
                            the audit included activities in the stabilization project from
                            FY 1994 through FY 2010.

METHODOLOGY                 To accomplish the audit objective, we:

                             •   Identified the stabilization project's cost, scope, and schedule;

                             •   Reviewed the execution of the project as detailed in its
                                 Primavera Schedule;

                             •   Examined documentation, including the Project Execution
                                 Plan, work packages, and the Plan;

                             •   Discussed stabilization project activities with Department,
                                 Los Alamos, and Board personnel;

                             •   Reviewed Federal and Department regulations governing the
                                 project; and,

                             •   Reviewed Board recommendations and correspondence to
                                 the Department.

                             We conducted the audit in accordance with generally accepted
                             Government auditing standards for performance audits and
                             included tests of internal controls and compliance with laws and
                             regulations to the extent necessary to satisfy the audit objective.
                             Because our review was limited, it would not necessarily have
                             disclosed all internal control deficiencies that may have existed
                             at the time of our audit. We did not conduct a reliability
                             assessment of computer-processed data because we did not
                             consider such data to be critical to satisfying our audit objectives.
                             As part of our review, we evaluated the Los Alamos Site Office's
                             expectations and performance measures for the stabilization
                             project. We determined that the Site Office had not established
                             performance measures for the stabilization project in accordance
                             with the Government Performance and Results Act of 1993.

                             We held an exit conference with Department Headquarters on
                             August 9, 2004. Los Alamos waived an exit conference.



Page 5                                                  Objective, Scope, and Methodology
Appendix 2
______________________________________________________________________

                                 PRIOR AUDIT REPORTS


OFFICE OF INSECTOR GENERAL REPORTS

  •   The Plutonium Stabilization and Packaging System (PuSPS) at the Rocky Flats
      Environmental Technology Site (DOE/IG-0554, May 2002). The audit noted that Rocky
      Flats would not be able to stabilize and package all of its plutonium by the May 2002
      target. It is projected that the final container will not be produced until March 2003. The
      Rocky Flats Field Office (RFFO) stated there were production delays due to (1) delayed
      start-up of the PuSPS, (2) lower than anticipated production rates, and (3) higher than
      expected equipment failures. In addition, Kaiser-Hill did not develop a detailed, long-
      term production schedule to ensure on-time completion and RFFO did not ensure that a
      contingency plan was developed in the event that production stopped.

  •   Americium/Curium Vitrification Project at the Savannah River Site (DOE/OIG-0489,
      November 2000). The audit noted that the Department would not meet its commitment
      to stabilize the Am/Cm by September 2002. Even though the Department submitted a
      revised completion date of December 2005, the audit stated the Department is not likely
      to meet this milestone either. According to the report, the Department committed itself to
      the dates before knowing they were achievable. In addition to missed commitment dates,
      the Department did not establish a continuous level of funding necessary to complete the
      project on time.

GENERAL ACCOUNTABILITY OFFICE REPORTS

  •   Department of Energy, Problems and Progress in Managing Plutonium (GAO/RCED-
      98-68, April 1998). The report noted that the Department is unlikely to meet its May
      2002 target date to have its plutonium that is not in pits stabilized, packaged, and stored.
      One of the delays cited for this problem at Los Alamos was the competing priority for
      funding, staffing, and equipment. Delays result in the continued existing levels of risk to
      workers' health and safety and also increased costs. Los Alamos may miss its May 2002
      target date by up to 3 years.




Page 6                                                                      Prior Audit Reports
Appendix 3
______________________________________________________________________




Page 7                                           Management Comments
Appendix 3
______________________________________________________________________




Page 8                                           Management Comments
                                                                    IG Report No. DOE/IG-0659

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
